           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


  THE SOCIAL SECURITY ADMINISTRATION’S
       ENTERPRISE-WIDE NETWORK
       INFRASTRUCTURE CONTRACT

     September 2008   A-14-08-18014




AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                             SOCIAL SECURITY
MEMORANDUM

Date:      September 2, 2008                                                                       Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   The Social Security Administration’s Enterprise-Wide Network Infrastructure Contract
           (A-14-08-18014)


           OBJECTIVE

           The objectives of our review were to determine whether Northrop Grumman Computing
           Services, Inc. (Northrop Grumman) adhered to the terms of the contract 1 and whether
           Social Security Administration (SSA) personnel properly monitored the contract.
           Specifically, we reviewed the Agency’s administrative controls and oversight of the
           Northrop Grumman contract. We did not independently: test the acquired software;
           evaluate the equipment maintenance service provided; or test the functionality of the
           equipment acquired.

           BACKGROUND

           On September 28, 2005, SSA entered into a contract 2 with Northrop Grumman to
           address hardware, software, maintenance and technical support (see Appendix C for
           definitions of key contract terminology) of the Agency’s Enterprise-Wide Network. The
           contract has an estimated value of $153.2 million for 60 months from
           September 28, 2005 through September 27, 2010. The network, known as the Social
           Security Administration’s Enterprise-Wide Network Infrastructure (SSANet), 3 has
           thousands of daily users. For example, SSA’s 62,000 employees use Internet and




           1
               SSA Contract Number SS00-05-40020.
           2
            SSA Contract Number SS00-05-40020 obtained through General Services Administration (GSA)
           Schedule Contract numbers, GS-35F-4389G and GS-35F-0279J.
           3
             The SSANet infrastructure is comprised of 1,300 SSA and State disability determination services sites
           that are located in all 50 States, the District of Columbia, Guam, Puerto Rico, and the U.S. Virgin Islands.
           SSANet also provides connectivity to external business partners including various State entities, other
           Federal agencies, contractors and the public.
Page 2 - The Commissioner

Intranet resources in over 1,300 offices nationwide to communicate and process SSA
workloads, such as retirement and disability claims. As of July 2007, SSA had paid,
and we reviewed, $27.3 million 4 of the estimated $153.2 million.
                  5                                    6
Under SSA policy and Federal contracting regulations, SSA is required to monitor the
contract to ensure the terms are met. This includes both monitoring contractor
technical performance and contractor adherence to contract terms.

RESULTS OF REVIEW
In general, SSA properly monitored the contract and ensured Northrop Grumman
adhered to the contract terms. However, some aspects of the contract oversight
warrant more attention by the Agency.

For example, SSA appropriately ensured that:

•     Invoices were certified as correct before payment and were paid in accordance with
      the Prompt Payment Act. 7
•     Certifications were made that goods and services were received before payment.
•     Invoices, individually or in total, did not exceed allowed amounts.
•     Equipment unit prices and hourly rates billed on contractor invoices adhered to
      contract terms.
•     The contractor was timely in delivering commercial products and engineering
      services ordered.

However, the following issues need further attention by SSA:

• Equipment was not tagged and accounted for in an inventory system.
• Equipment disposal was not done in accordance with Federal regulations and SSA
  policy.
• Suitability testing was not performed for all subcontractor personnel who worked
  under this contract.



4
 As of July 31, 2007 SSA had paid 82 contractor invoices that contained the following items of expense:
Personnel Service $3.4 million; Equipment $12.2 million; Software $150,000; and Equipment Maintenance
$11.7 million.
5
    Social Security Acquisitions Handbook, Subpart H2342.70, Contract Monitoring.
6
Federal Acquisition Regulation (FAR) § 42.201(a) (1) and (2), 48 C.F.R. § 42.201(a) (1) and (2).
7
    The Prompt Payment Act of 1982, Pub. L. 97-177, as amended, 31 U.S.C. § 3901 et seq.
Page 3 - The Commissioner

EQUIPMENT WAS NOT TAGGED AND ACCOUNTED FOR IN AN INVENTORY
SYSTEM

According to SSA policy, 8 some network equipment purchased under this contract
should have been tagged 9 with a bar code and accounted for in an inventory system. 10
However, SSA did not tag or account for the network equipment provided under this
contract. As of July 31, 2007, more than $12 million in equipment was purchased
under this contract. This included more than 1,400 computer switches 11 that had a
median unit price of about $2,756. According to SSA policy, because the unit price of
these switches met SSA’s definition of ‘accountable property,’ they should have been
tagged and accounted for in an inventory system. SSA indicated that all equipment
was not received centrally before distribution and it was, therefore, not possible to tag
and record this equipment in an inventory system. Regardless of the dollar threshold
set, noncompliance with Agency policy lessens the effectiveness of management
controls in this area because all equipment is not being appropriately tagged and
accounted for.

EQUIPMENT DISPOSAL WAS NOT DONE IN ACCORDANCE WITH FEDERAL
REGULATIONS AND SSA POLICY
                                                      12
SSA did not properly monitor and report the disposal of telecommunication equipment
(switches and routers) purchased under this contract to ensure compliance with Federal
regulations and SSA internal policy. The contract 13 indicates that when SSA
determines Information Technology equipment will be replaced, the Agency must follow
the policies and procedures on exchange/sale contained in the Federal Property




8
 Administration Instruction Manual System (AIMS), Property Management Chapter, Material Resources
Manual (MRM) § 04.01.03 defines ‘accountable property’ as “The end item of personal property with an
aggregate acquisition value of $1,000 to $99,999 including property owned, leased or otherwise under
Government control.”
9
  According to SSA Office of Publications and Logistics Management, all accountable property is to be
tagged with a bar code. The list of items that are to be bar coded includes a category titled ‘Information
Technology Equipment,’ such as switches and routers.
10
   AIMS, MRM § 04.01.03, supra, states, in part, that “All personal property within the accountable dollar
threshold must be recorded in a system to be maintained by the Property Accountable Officer.”
11
   A switch is a piece of hardware that is critical in supporting network connectively within the SSANet
infrastructure.
12
  AIMS, Property Management Chapter, MRM § 04.29.04 C provides, in part, that “SSA has the option of
disposal by donation or sales action. The option of least expense to the trust funds should be chosen.”
13
   GSA Schedule Contract Number GS-35F-4506G, Section VI-Terms and Conditions Applicable to
Purchase of General Purpose Commercial Information Technology Equipment, paragraph 9-Trade-In of
Information Technology Equipment.
Page 4 - The Commissioner

Management Regulations. 14 Federal regulations 15 require that SSA provide a list to
GSA of all telecommunication equipment disposed of by exchange/sale. Additionally,
based on SSA policy, 16 GSA is the disposal agency for the Government, and all
requests for the disposal of this type of equipment should be sent through GSA for
action.
                                    17
According to SSA internal policy, an SSA property management officer should
determine the value of the equipment and a technical expert should complete a
utilization review before disposal. As of July 2007, SSA had received over $250,000 in
trade-in credits for the return of more than 1,400 switches and other equipment. SSA
did not: involve GSA in conducting this activity; report this activity to GSA; conduct
value assessments to ensure compliance with the contract; and complete utilization
reviews of equipment before disposal. It was also noted that sections of SSA’s internal
policy on equipment disposal referred to GSA forms that were outdated.

More than 1,700 other SSA switches will no longer be supported as of
November 3, 2009. We found that the company that supplies the switches to Northrop
Grumman is the same company that determined the switches needed to be replaced
and the trade-in value given for the items returned. SSA accepted the trade-in value
without determining whether it was the best value to SSA. Federal regulations require
that agencies determine whether an exchange or sale will provide the greater return to
                  18
the Government. However, there was no assurance that SSA actually achieved the
“greater return” or that trade-in was warranted because the items involved were not
controlled and accounted for by SSA in an inventory system and virtually all of the
activity surrounding the trade-in process was not controlled by SSA. In the future, SSA
could use other methods to determine and document the best return on investment

14
   The information on replacement of personal property pursuant to the exchange/sale authority previously
contained in Federal Property Management Regulations part 101-46, 41 C.F.R. § 101-46, is now located
in the Federal Management Regulation System (FMRS) part 39, 41 C.F.R. § 102-39. The contract also
requires the Agency to follow contracting policies and procedures in the FAR and disposition regulations
for information technology excess personal property when it determines such equipment will be replaced.
FMRS, Subchapter B-Personal Property, Subpart A, Subsection 102-39.35, 41 C.F.R. § 102-39.35, states,
that “. . . [y]ou must determine whether an exchange or sale will provide the greater return for the
Government. When estimating the return under each method, consider all related administrative and
overhead costs.”
15
   FMRS, supra, § 102-39.75(a) states “ . . . [y]ou must submit, within 90 calendar days after the close of
each fiscal year, a summary report in a format of your choice on the exchange/sale transactions made
under this part during the fiscal year (except for transactions involving books and periodicals in your
libraries).” FMRS, supra, § 102-39.20 defines “exchange” as “. . . to replace personal property by trade or
trade-in with the supplier of the replacement property.” That same section also defines “exchange/sale”
as “. . . to exchange or sell non-excess, non-surplus personal property and apply the exchange allowance
or proceeds of sale in whole or in part payment for the acquisition of similar property.”
16
     AIMS, MRM § 04.29.06.
17
     AIMS, MRM § 04.29.08(E) (1).
18
     FMRS, supra, §102-39.35, 41 C.F.R. § 102-39.35.
Page 5 - The Commissioner

approach for equipment disposal. For example, SSA could contact equipment
resellers, eBay, Craig’s list, and other equipment manufacturers to validate the trade-in
credit amount.

SUITABILITY TESTING WAS NOT PERFORMED FOR ALL SUBCONTRACTOR
PERSONNEL

Suitability testing for all subcontractors was not performed. Northrop Grumman used
subcontractor personnel to install equipment at various SSA locations nationwide.
None of the subcontractor employees involved in this activity had the appropriate
suitability check performed, and no waivers were granted. Allowing contractor
personnel, who have not undergone an appropriate suitability review, access to SSA
facilities heightens SSA risk that sensitive systems and/or data could be disclosed or
compromised.

The contract established procedures for obtaining suitability determinations for
contractor personnel who will perform 19 under the network contract. Northrop
Grumman did not adhere to the contract terms when it used subcontractor personnel to
perform the installation of equipment at various SSA locations nationwide. The Office
of Acquisition and Grants formally notified Northrop Grumman of this contract breach
and requested that the contractor comply.

While SSA did not ensure contractor compliance with the contract, it should be noted
that subcontractor personnel were usually escorted or observed by SSA staff when
                                             20
allowed access to SSA sites and equipment. We found one exception where a
subcontractor employee may not have been continuously escorted or observed while
performing an installation. 21 These same issues were identified in other SSA reviews 22
that we have performed and we are aware of the Agency’s ongoing efforts to address
this condition.


19
  Performing under the contract is defined as either working onsite at an SSA facility (including visiting an
SSA site for any reason) or having access to Agency programmatic or sensitive information.
20
  We were able to confirm that subcontractor personnel performed equipment installations at 32 of 35
SSA field office locations we contacted. Thirty-one of 32 sites responded that subcontractor personnel
were either escorted or observed at all times during their visit. For additional details, see Appendix B-2,
paragraph 3.
21
   AIMS, MRM § 04.50.05.A.5 states, in part, that “Management is responsible for scheduling visits by
vendors, contractors, delivery or maintenance personnel, etc. and must monitor visits as necessary.
Management must be notified of all visitors (non-claimant) and request identification from all visitors prior
to admitting them into the work area. All visitors are to be escorted by SSA personnel while in the
facility/office.”
22
  Office of the Inspector General (OIG), The Social Security Administration’s Information Technology
Maintenance and Local Area Relocation Contract, (CIN: A-14-07-17022), May 21, 2007. OIG, The Social
Security Administration’s Consulting Services Contract for the Time Allocation System (A-14-08-18020),
August 5, 2008.
Page 6 - The Commissioner

CONCLUSION AND RECOMMENDATIONS
Although SSA exercised a degree of administrative oversight and accountability of this
contract, there are some areas that warrant management’s attention.

We recommend SSA:

   1. Appropriately tag and account for all equipment covered by SSA’s policy.

   2. Comply with Federal requirements and existing internal policy regarding the
      tracking and disposal of equipment.

   3. Update its policy to reflect current GSA forms used in the disposal of equipment.

   4. Ensure all contractor personnel have obtained appropriate suitability
      determinations before working under a contract.

AGENCY COMMENTS
SSA agreed with all of our recommendations. See Appendix D for the full text of SSA’s
comments.




                                               Patrick P. O’Carroll, Jr.
                                     Appendices
APPENDIX A – Acronyms
APPENDIX B – Scope and Methodology
APPENDIX C – Key Contract Terminology Definitions
APPENDIX D – Agency Comments
APPENDIX E – OIG Contacts and Staff Acknowledgments
                                                               Appendix A

Acronyms
AIMS               Administrative Instructions Manual System

C.F.R.             Code of Federal Regulations

FAR                Federal Acquisition Regulation

FMRS               Federal Management Regulation System

GSA                General Services Administration

MRM                Material Resources Manual

Northrop Grumman   Northrop Grumman Computing Systems, Inc.

OIG                Office of the Inspector General

SSA                Social Security Administration

SSANet             SSA Enterprise-Wide Network
                                                                        Appendix B

Scope and Methodology
We conducted our audit field work between June and December 2007 in Baltimore,
Maryland. The principal entities audited were the Social Security Administration’s
(SSA) Offices of Acquisition and Grants and Telecommunications and Systems
Operations.

We reviewed records and interviewed staff in SSA’s Offices of the Deputy
Commissioner for Budget, Finance and Management; Finance and Property
Management; and Personnel, Center for Personnel Security and Project Management.
We also contacted regional office staff regarding the work performed onsite by
subcontractor personnel.

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objectives. To meet our objectives, we
•   reviewed applicable Federal laws and regulations and applicable SSA policies and
    procedures;

•   reviewed the SSA Enterprise-Wide Network Infrastructure contract, contract number
    SS00-05-40020;

•   interviewed Agency staff;

•   reviewed and observed Agency contract management processes;

•   examined each call order as if it were a contract unto itself;

•   tested hourly rates and unit prices for all 82 invoices submitted during the review
    period for compliance with contract requirements;

•   selected and tested 7 of 41 invoices that contained personnel service cost for
    compliance with contract requirements;

•   obtained, documented and examined other information relevant to our review; and

•   selected 35 of 177 field office locations for inquiry where subcontractor installations
    were conducted during 2007.




                                             B-1
Testing Methodology and Results
Of 82 contractor invoices paid during the audit period ended July 31, 2007,
41 contained personnel service costs. For testing, we selected a sample of 7 invoices,
totaling $559,017, of 41 invoices, totaling $3,438,034. We reviewed one invoice,
chosen at random, from each of the 7 quarters in the period of our review. Our
objectives were to determine whether personnel service invoices were mathematically
correct and contained support for the number of hours billed; the hourly rates used in
calculating the invoice amounts adhered to the contract provisions; and that none of the
invoices exceeded the call order award amounts. We found one exception where an
invoice was under-billed for less than 30 minutes. This was not material to the contract.
We also examined all 82 invoices, totaling $27,370,982, the contractor submitted during
the review period of September 28, 2005 through July 31, 2007. Our objectives were to
determine whether the submitted invoices were mathematically correct; unit prices
adhered to contract provisions and were supported by General Services Administration
Federal Supply Schedule or other relevant documentation; certified by the project
officer prior to payment; certified prior to payment that services were rendered; did not
exceed the individual call order award amounts; paid in accordance with the Prompt
Payment Act; and the invoices submitted complied with contract provisions. We found
minor exceptions for some unit price amounts, due to rounding, that were not material
to the contract.

To confirm that subcontractor personnel actually installed equipment at SSA field office
locations, we developed and used a questionnaire and contacted field office staff. We
randomly selected 35 sites from a universe of 177 sites where installations were
performed during the period January 1 through July 31, 2007. For each of the two
subcontractors who performed the installations, we chose three installs for review for
each month. For months with three or fewer installs, all installs were selected for
review. We obtained responses from all 35 field office locations. We confirmed that
the subcontractor personnel performed installations at 32 of the 35 field locations.
Further, 31 of the 32 field offices responded that contractor personnel were either
escorted or observed at all times during their visit. We were unable to confirm
installations at 3 of the 35 field offices. SSA staff at one of the three sites could not
recall the installation. Contact points involved with the installations at two of the three
sites were unavailable because of retirement or death.




                                            B-2
                                                             Appendix C

Key Contract Terminology Definitions

Equipment Maintenance        The performance of onsite replacement of failed
                             hardware.

Hardware                     Components that provide the foundation for the
                             network.

Software                     Components that enable hardware to function.

Switch                       A device that channels incoming data toward their
                             intended destination.

Technical Support Services   Individuals with knowledge and experience bases in
                             technical areas. For example, network engineers;
                             subject matter experts, software specialists, and
                             project managers.
                  Appendix D

Agency Comments
                                          SOCIAL SECURITY

MEMORANDUM


Date:      August 20, 2008                                                         Refer To:   S1J-3

To:        Patrick P. O'Carroll, Jr.
           Inspector General

From:      David V. Foster        /s/
           Executive Counselor to the Commissioner

Subject:   Office of the Inspector General (OIG) Draft Report, “The Social Security Administration’s
           Enterprise-Wide Network Infrastructure Contract” (A-14-08-18014)--INFORMATION


           We appreciate OIG’s efforts in conducting this review. Attached is our response to the
           recommendations.

           Please let me know if we can be of further assistance. Staff inquiries may be directed to
           Candace Skurnik, Director, Audit Management and Liaison Staff, at (410) 965-4636.

           Attachment




                                                          D-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
REPORT, “THE SOCIAL SECURITY ADMINISTRATION’S (SSA) ENTERPRISE-
WIDE NETWORK INFRASTRUCTURE CONTRACT ” (A-14-08-18014)

Thank you for the opportunity to review and provide comments on this draft report. We concur
with all four of the recommendations, and our responses to them are as follows:

Recommendation 1

Appropriately tag and account for all equipment covered by policy.

Comment

We agree. A three phase action plan is under development to tag and account for all Cisco
equipment obtained under this contract using the Sunflower system. The first phase was put into
place July 2, 2008. In this phase, all equipment being deployed by Northrop Grumman and SSA
will be tagged prior to deployment. Phase 2 processes will address tagging of field replaced
units, and Phase 3 will address all installed equipment.

Recommendation 2

Comply with Federal requirements and existing internal policy regarding the tracking and
disposal of equipment.

Comment

We agree. We reviewed the Property Disposal Guide, and we are seeking additional guidance
from OIG to comply with this recommendation. Currently, no trade-in actions are being pursued.
However, in the recent past, trade-in actions have resulted in more than $250,000 credit to us.

On July 30, 2008, we emphasized with staff the need for the contracting officers to make a
determination whether the proposed trade-in prices offered by vendors are fair and reasonable.
We provided the contracting officers with the best sources and methods we currently have to
assist them in making this determination. For all information technology equipment contracts
that involve trade-ins, the contracting officers will now include evidence of their determination in
the contract file.

Recommendation 3

Update policy to reflect current GSA forms used in the disposal of equipment.




                                                D-2
Comment

We agree. We are updating all of the property management related material in the
Administration Instruction Manual System to reflect current GSA forms used in equipment
disposal. We will complete a first draft by the end of August 2008.

Recommendation 4

Ensure all contractor personnel have obtained appropriate suitability determinations before
working under a contract.

Comment

We agree. Processes are in place to ensure that all Northrop Grumman contractors have
suitability determinations before working under the contract. The subcontractors performed
physical switch installations at small and medium sized remote sites, and we halted this activity
in March 2008 due to the suitability status of these subcontractors. To date, we have cleared
approximately 30 subcontractors through the suitability process and have additional personnel
clearance actions currently underway.




                                               D-3
                                                                     Appendix E

OIG Contacts and Staff Acknowledgments
OIG Contacts

      Kitt Winter, Director, Information Technology Audit Division, (410) 965-9702

      Mary Ellen Moyer, Acting Audit Manager, (410) 966-1026

Acknowledgments

In addition to those named above:

      Harold Hunter, Senior Auditor

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Staff Assistant at (410) 965-4518. Refer to Common Identification Number
A-14-08-18014.
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                 Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                           Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                          Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
